A-i3
Affirm, and Modify and Affirm; Opinion Filed April 1, 2020

In The

Court of Appeals
jUftff district of Cexao at Balias
No. 05-19-00414-CR
No. 05-19-00415-CR
No. 05-19-00416-CR
KYLE DAMOND JONES, Appellant
V.
THE STATE OF TEXAS, Appellee
On Appeal from the Criminal District Court No. 1
Dallas County, Texas
Trial Court Cause Nos. F18-22371-H, F18-53537-H, F18-53538-H
OPINION
Before Justices Partida-Kipness, Nowell, and Evans
Opinion by Justice Nowell
Kyle Damond Jones pleaded guilty to a single charge of evading arrest or
detention with a vehicle and two charges of aggravated assault with a deadly
weapon. The trial court placed him on deferred adjudication community supervision
in each case. Although appellant waived his right to appeal, the trial court granted
him permission to appeal in exchange for his promise not to contact his victims. In
fifteen issues, appellant argues (1) the deferred adjudication order on the evading
charge is void and the sentence is illegal because the offense was a state jail felony,

A-If
not a third-degree felony; (2)-(4) the sentences should be vacated because he was
incompetent; (5)-(7) the record does not show he was properly admonished or he
voluntarily waived his rights; (8)—(10) the record does not establish an adequate
factual basis for each plea; (1.1)—(13) the trial court erred by not requiring a written
waiver of his right to a jury trial in addition to his plea papers; and (14)—(15) the
judgments in trial court cause numbers F18-53537-H and F18-35358-H should be
modified. We modify the trial court’s judgments in cause numbers F-1853537-H
and F18-35358-H and affirm as modified. We affirm the trial court’s judgment in
cause number F18-22371-H.
A. Evading Arrest or Detention as a Third-Degree Felony
In his first issue, appellant argues the deferred adjudication order for the
evading arrest or detention charge is void and his third-degree felony sentence is
illegal because he did not have a prior conviction for evading arrest or detention and,
therefore, the offense was a state jail felony. A person commits the offense of ■
evading arrest or detention if he intentionally flees from a person he knows is a peace
officer or federal special investigator attempting lawfully to arrest or detain him.
Tex. Penal Code § 38.04(a). Subsection (b) establishes the offense level as a Class
A misdemeanor, except under certain circumstances, such as when the person has
been previously convicted of evading arrest or detention or uses a vehicle or
watercraft While in flight. Id. § 38.04(b). It is the application of those circumstances
at issue in this case.
-2-

4-15
During the 2011 legislative session, section 38.04 was amended multiple
times, resulting in two different punishment schemes. Both punishment schemes are
codified in section 38.04(b)(2)(A). One scheme classifies the offense as a thirddegree felony where the actor uses a motor vehicle or watercraft in fleeing law
enforcement and previously has been convicted under section 38.04. Act of May
23,2011,82nd Leg., R.S., ch. 391, §'1,2011 Tex. Gen. Laws 1046,1046-47 (current
version at Tex. Penal Code § 38.04(b)(2)(A)), and Act of May 24,2011,82nd Leg.,
R.S., ch.,839, § 4, 2011 Tex. Gen. Laws 2010, 2011 (current version at Tex. Penal
Code Ann § 38.04(b)(2)(A)). The other version of the punishment scheme makes
evading arrest or detention a third-degree felony where the actor uses a vehicle while
in flight, regardless of his having been previously convicted of the offense. Act of
May 27, 2011, 82nd Leg., R.S., ch. 920, § 3, 2011 Tex. Gen. Laws 2321, 2322
(current version at Tex. Penal Code § 38.04(b)(2)(A)).
This Court previously considered the issue of conflicting statutory provisions
regarding the offense level for this crime when, as here, the accused uses a vehicle
in flight. See Allgood v. State, No. 05-17-00875-CR, 2018 WL 3868157, at *2 (Tex.
App.—Dallas Aug. 15, 2018, no pet.) (mem. op., not designated for publication).
We concluded: “The offense of evading arrest or detention, when the accused uses
a motor vehicle in his flight, is a third degree felony, regardless of whether the
accused has a prior conviction for evading arrest or detention. Thus, [appellant’s]
complaint that he should have been charged with a state-jail felony is without merit.”
-3-

A-tk
Id. at *3. Because appellant used a motor vehicle in his flight, the offense is a thirddegree felony regardless of whether he had a prior conviction for evading arrest or
detention. See id. We overrule appellant’s first issue.
B. Competency
In his second, third, and fourth issues, appellant argues each deferred
adjudication order should be vacated because the trial court entered its restoration
judgment on the incorrect basis that the state hospital reported appellant was
competent.
Appellant was arrested for two aggravated assaults with a deadly weapon on
April 19,2018. On September.21,2018, the trial court entered an order for appellant
to be examined by Dr. Lisa K. Clayton to determine whether he was competent to
stand trial. After performing a psychiatric evaluation on October 25, 2018, Dr.
Clayton concluded appellant was mentally incompetent to stand trial “due to his
severe mental illness, Schizophrenia,” but would regain his Competency in the
foreseeable future with proper treatment. Based on Dr. Clayton’s report, the trial
court held a hearing at which it determined appellant was incompetent to stand trial;
however, with treatment, the court believed he would regain or recover his
competency in the near or foreseeable future.. The trial court ordered appellant
committed to a facility for up to 120 days. Appellant remained in jail and was not
transferred to a mental health facility.

-4-

A-1/
On January 9, 2019, appellant filed a motion for speedy trial. He also sent a
handwritten letter to the court stating:
Per Tx Penal Code[,] I, Kyle Damond Jones, am attesting my
competency. I understand the set up of the court system. The Judge
oversee [sic] evidence presented by the defense and prosecution. The
prosecution represents the State. The defense represents me and my
representative is my attorney. I have the option to let the Judge decide
the verdict or let the Jury. I understand so I am not incompetent. I am
asking to be restored to competent [sic] via Tx crim code 46B.108.
Being eccentric is not being incompetent. Being incompetent is not
being crazy. Those lines seem to have been blurred and I am asking to
be restored since I understand so it is obvious I am not incompetent.
The letter states he requests “this statement is entered into the court record.” On
February 12, 201 , the trial court ordered Dr. Michael Pittman to determine
appellant’s competency. After examining appellant, Dr. Pittman filed a report
reflecting his conclusion that appellant had “a sufficient present ability to understand
the proceedings against him. He is also capable of cooperating with his attorney in
formulating a defense with a reasonable degree of rational understanding. In my
opinion, Mr. Jones is competent to stand trial.” A docket entry made on March 1,
2019, states: “Hospital sent defendant back competent. Defendant restored to
competency today per Dr. Pittman’s report dated 2/21/2019.” At his plea hearing on
March 20, 2019, appellant agreed with his counsel that he was restored to
competency; the trial court found appellant competent to enter his pleas.
On appeal, appellant argues that “the trial court arbitrarily found without any
factual basis that Appellant was restored to competency at the state hospital. This
-5-

/]

/M?
determination was arbitrary because the record shows that Appellant was restored to
competency in the county jail; he was never taken to the state hospital.”
A person is incompetent to stand trial if the person does not have sufficient
present ability to consult with his lawyer with a reasonable degree of rational
understanding or a rational as well as factual understanding of the proceedings
against him. Tex. Code Crim. Proc. art. 46B.003. The Texas Court of Criminal
Appeals noted that the fact a defendant is mentally ill does not by itself mean he is
incompetent. See Turner v. State, 422 S.W.3d 676, 691 (Tex. Crim. App. 2013).
A trial court may, upon receiving credible evidence that a criminal defendant
has been restored to competency following the competency hearing but before the
defendant is transported to a mental health facility, appoint a disinterested expert to
reexamine the defendant. Tex. Code Crim. Proc. art. 46B.0755(a). If, after a
reexamination, the expert opines the defendant has been restored to competency, the
trial court must withdraw its order of commitment. Id. art. 46B.0755(b). If both
parties agree the defendant is competent to stand trial, and the trial court concurs,
the court is required to find the defendant competent to stand trial.

Id. art.

46B.0755(c).
In this case, appellant was never transported to a mental health facility; he
remained in jail. After learning appellant had possibly regained competency while
in jail, the trial court ordered Dr. Pittman to evaluate him. Dr. Pittman then reported
appellant was competent to stand trial. Appellant testified at his plea hearing that he
-6-

A'-\A
had been found incompetent, but he had been legally restored to competency.
Defense counsel informed the trial court he was satisfied his client was mentally
competent at the plea hearing, and the trial court found appellant was mentally
competent to enter the pleas. Based on this record, we conclude the trial court
complied with the procedures set out in article 46B.0755 of the code of criminal
procedure, and we overrule appellant’s second, third, and fourth issues.
C. Voluntariness
In his fifth, sixth, and seventh issues, appellant argues he is entitled to a new
trial in each case because the record does not establish proper admonishments or that
he voluntarily waived his rights and voluntarily pleaded guilty. The voluntariness
of a plea is determined from the totality of the circumstances viewed in light of the
entire record. Loringv. State, No. 05-18-00421-CR, 2019 WL 3282962, at *4 (Tex.
App.—Dallas July 22, 2019, no pet.) (mem. op., not designated for publication)
(citing Ducker v. State, 45 S.W.3d 791, 796 (Tex. App.—Dallas 2001, no pet.)).
When the record reflects that a defendant was properly admonished, a prima facie
showing exists that the guilty plea was entered knowingly and voluntarily. Id. (citing
Martinez v. State, 981 S.W.2d 195, 197 (Tex. Crim. App. 1998)). The burden then
shifts to the defendant to establish that, notwithstanding the statutory
admonishments, he did not fully understand the consequences of his plea such that
he suffered harm. Id. (citing Martinez, 981 S.W.2d at 197). “An accused who attests
that he understands the nature of his guilty plea and that it is voluntary has a heavy
-7-

A-i-0
burden on appeal to show that his plea was involuntary.” Id. (citing Starz v. State,
309 S.W.3d 110, 117 (Tex. App.—Houston [1st Dist.] 2009, pet. ref d)).
The plea agreements, which appellant signed, state: “You have an absolute
right to a jury trial, to confront and cross-examine the witnesses against you, and to
call witnesses in your own behalf. You have a right to testify, but you cannot be
compelled to do so. The. prosecuting attorney’s recommendation as to punishment
is not binding on the Court. If the Court rejects any plea bargain made in this case,
you may withdraw your plea of guilty or nolo contendere.” Under the heading
“Defendant’s Statements and Waivers,”.each plea agreement states in part:
With the approval of counsel, defendant makes the following
statements and waivers. I am the accused in the charging instrument
and ana mentally competent. I understand the nature of the accusation
made against me, the range of punishment for such offense, and the
consequences of a plea of guilty or nolo contendere. I understand that I
have an absolute right to a jury trial, that I have the right to remain
silent, that anything I say can and will be used against me, that I have
the right to confront and cross-examine the witness against me, and that
I have a right to be tried upon an indictment returned by a grand jury.
I admit and judicially confess that I committed the offense . . . exactly
as alleged in the charging instrument. I affirm that my plea and judicial
confession are freely and voluntarily made, and not influenced by any
consideration of fear, persuasion, or delusive hope of pardon or parole.
Under the section titled “Signatures and Acknowledgments,” appellant signed his
name underneath a paragraph that states:
I, the defendant herein, acknowledge that my attorney has
explained to me, and I have read and I understand, all the foregoing
admonitions and warnings regarding my rights and my plea, and that
my statements and waivers are knowingly, freely, and voluntarily made
-8-

\

A-"LA
\

with full understanding of the consequences. I request that the Court
accept all my waivers, statements, agreements, and my plea.

i

1

At the plea hearing, appellant told the trial court he understood everything he signed,
including the ranges of punishment, and he was entering his pleas freely and
\

voluntarily. He also testified under oath that he entered his pleas freely and
voluntarily. The trial court found the pleas were entered freely and voluntarily.
All aspects of the record show appellant entered his pleas freely and
voluntarily. Because appellant has not shown lie did not voluntarily waive his rights
and plead guilty, we overrule his fifth, sixth, and seventh issues.
D. Factual Basis for Each Plea
In his eighth, ninth, and tenth issues, appellant asserts the record does not
establish an adequate factual basis for each plea. Appellant’s brief states the
evidence in his cases “was limited to written judicial confessions that tracked the
indictments”; those judicial confessions were .admitted and are part of the record.
When a defendant waives his right to a jury trial and pleads guilty* the State is
required to introduce evidence showing that the defendant is guilty. Tex. Code
Crim. Proc. art. 1.15; see also Wallace v. State, No. 05-18-00006-CR, 2018 WL
6839572, at *2 (Tex. App.—Dallas Dec. 31,2018, no pet.) (mem.'op., not designated
for publication). A judicial confession, standing alone, is sufficient to support a
guilty plea as long as it covers every element of the charged offense. Menefee v.
State, 287 S.W.3d 9,13 (Tex. Crim. App. 2009); Wallace, 2018 WL 6839572, at *2.
-9-

A
The judicial confessions executed by appellant track the language of the
indictments and cover every element of each charged offense. Standing alone, they
are sufficient evidence to support his guilty pleas for each offense. We overrule
appellant’s eighth, ninth, and tenth issues.
. E. Waiver of Right to Jury
In his eleventh, twelfth, and thirteenth issues, appellant argues the trial court
erred by accepting his waiver of his right to a jury in each case because he did not
execute a written waiver in addition to his plea papers. Article 1/.13 of the Texas
Code of Criminal Procedure requires a defendant who waives his right to a jury trial
to do so in writing in open court with the approval of the court and the State. Tex.
Code Crim. Proc. art. 1.13(a).
Each plea agreement appellant executed includes a section titled “Court’s
Admonitions to Defendant,” and those sections state in part: “You have an absolute
right to a jury trial.” The “Defendant’s Statements and Waivers” in the same
document state in part: “I understand that I have an absolute right to a jury, trial. . .
. I hereby waive .... my right to a jury trial....” Appellant signed the documents.
The trial court judge also signed the documents underneath a paragraph that states
in part:
It appearing to the Court that the defendant is mentally competent and
is represented by counsel, that the defendant understands the nature and
consequences of the charge, and. that all parties have consented to and
approved the waiver ofjury trial and stipulations of evidence, the Court
finds the waivers, agreements, and plea to have been knowingly, freely,
-10-

A-t-S
and voluntarily made, and approves the waivers and agreements,
accepts the defendant’s plea....
During the plea hearing, the trial court judge and appellant had the following
exchange:
THE COURT: Sir, did you read, did your lawyer go over with you, and
did you understand everything that you signed in your case, including
the Court’s written warnings of your statutory and constitutional rights?
THE DEFENDANT: Yes..
THE COURT: Did you read and go over each of the indictments with
your attorney?
THE DEFENDANT: Yes.
THE COURT: You understand the charges against you in these cases
and the ranges of punishment? .
THE DEFENDANT: Yes.
THE COURT: In each case, sir, you have a right to a jury trial. It’s my
understanding you wish to waive and give up those rights; is that true?
THE DEFENDANT: Yes.

[DEFENSE COUNSEL]: Your Honor, comes now Kyle Jones in three
causes before the Court. ... He will waive his right to jury trials. He
will enter pleas of guilty to the charges as they stand alleged.
Appellant cites no authority requiring he execute a written waiver in addition
to the plea papers. The plea papers, executed by appellant, appellant’s attorney, the
prosecutor, and the trial court judge, included clear waivers of appellant’s right to a
jury trial. The court also ensured appellant knowingly waived his right to a jury trial
during the plea hearing, and appellant’s counsel announced the same during the
-11-

1

A-^-4
hearing. We conclude the record shows appellant waived his right to a jury trial in
writing and with the approval of the State and the court. We overrule appellant’s
eleventh, twelfth, and thirteenth issues.
F. Modification of Judgments
In his fourteenth and fifteenth issues, appellant asserts the deadly-weapon
findings in the judgments in trial court cause numbers F18-53537-H and F18-53538H should be deleted as premature. The State responds the deadly-weapon findings
should be deleted because the written plea agreements specified that there would be
no deadly-weapon findings. The plea agreements state there-would be no affirmative
finding of deadly weapons. However, under the heading “Findings on Deadly
Weapon.” the trial court’s orders of deferred adjudication in cause numbers F1853537-H and F18-53538-H state: “YES, NOT A FIREARM.”
“The only proper role of the trial court in the plea-bargain process is advising
the defendant whether it will ‘follow or reject’ the bargain between the state and the
defendant.” Moore v. State, 295 S.W.3d 329, 332 (Tex. Crim. App. 2009) (citing
Tex. Code Crim. Proc. art. 26.13(a)(2) (“the court shall inquire as to the existence
of any plea bargaining agreements between the state and the defendant and, in the
event that such an agreement exists, the court shall inform the defendant whether it
will follow or. reject such agreement in open court and before any. finding on the
plea.”)). The “trial court commits error if it unilaterally , adds un-negotiated terms to
a plea-bargain agreement.” Id. This Court may modify the trial court’s judgment to
-12-

A-7J3
make the record speak the truth when it has the necessary data and information to do
so. See Tex. R. App. P. 43.2(b); Bigley v. State, 865 S.W. 2d 26, 27-28 (Tex. Crim.
App. 1993); Asberry v. State, 813 S.W. 2d 526, 529 (Tex. App.—Dallas 1991, pet.
ref d). We conclude the requested modifications are supported by the record.
As reflected in the plea agreements in tidal court cause numbers FI 8-53537H and F18-53538-H, the parties agreed there would be no deadly-weapon findings
in the deferred-adjudication orders.

Because those orders incorrectly include

deadly-weapon findings, we delete them in trial court, cause numbers F18-53537-H
and F18-53538-H.
In conclusion, we modify the trial court’s orders of deferred adjudication in
cause numbers F18-53537-H and F18-35358-H to delete the deadly-weapon
findings and affirm as modified. We affirm the trial court’s order of deferred
adjudication in cause number FI8-22371-H.

/Erin A. Nowell/
ERIN A. NOWELL
JUSTICE
Publish
Tex. R. App. P. 47.2(b)
190414F.P05

-13-

A-nJo

Court of Appeals
iffifttj Btstrtri: of QJexas at Hallas
JUDGMENT

KYLE DAMOND JONES, Appellant
No. 05-19-00414-CR

On Appeal from the Criminal District
Court No. 1, Dallas County, Texas
Trial Court Cause No. F18-22371 -Ii.
Opinion delivered by Justice Nowell.
Justices Partida-Kipness and Evans
participating.

V.

THE STATE OF TEXAS, Appellee

Based on the Court’s opinion of this date, the judgment of the trial court is
AFFIRMED.
Judgment entered this 1st day of April, 2020.

-14-

A-T-l

Court of Appeals
Jftftlj district of Gtexas at ©atlas
JUDGMENT
KYLE DAMOND JONES, Appellant
No. 05-19-00415-CR

V.
,

THE STATE OF TEXAS, Appellee

On Appeal from the Criminal District
Court No. 1, Dallas County, Texas
Trial Court Cause No. F18-53537-H.
Opinion delivered by Justice Nowell.
Justices Partida-Kipness and Evans
participating.

Based on the Court’s opinion of this date, the judgment of the trial court is
MODIFIED as follows:
Under the heading “Findines on Deadly Weapon.” we DELETE the words
“YES, NOT A FIREARM” and ADD the term UN/A.”
As REFORMED, the judgment is AFFIRMED.
Judgment entered this 1st day of April, 2020.

-15-

A-'L*

(Enuri nf Appeals
Jdiftli district nf ulexas at Balias

■>.

JUDGMENT
KYLE DAMOND JONES, Appellant
No. 05-19-00416-CR

On Appeal from the Criminal District
Court No. 1, Dallas County, Texas
Trial Court Cause No. F-l 853538-H.
Opinion delivered by Justice Nowell.
Justices Partida-Kipness and Evans
participating.

V.

THE STATE OF TEXAS, Appellee

Based on the Court’s opinion of this date, the. judgment of the trial court is
MODIFIED as follows:
. Under the heading “Findings on Deadly Weapon.” we DELETE the words “YES,
NOT A FIREARM” and ADD the term “N/A.”
As REFORMED, the judgment is AFFIRMED.
Judgment entered this 1st day of April, 2020.

-16-

OFFICIAL NOTICE FROM COURT OF CRIMINAL APPEALS OF TEXAS
P.O. BOX 12308, CAPITOL STATION, AUSTIN, TEXAS 78711

FILE COPY

6/24/2020
k%s \.0< ?£?•
COA No. 05-19-00414-CR
JONES, KYLE DAMOND Tr|G4.^-W2237#H
PD-0441 -20
On this day, the Appellant's Pro Se petition-for discretionary review has been
refused.
Deana Williamson, Clerk
KYLE DAMOND JONES
219 W. CHERRY POINT
DALLAS, TX 75232
* DELIVERED VIA E-MAIL *

\

<c

OFFICIAL NOTICE FROM COURT OF CRIMINAL APPEALS OF TEXAS
P.O. BOX 12308, CAPITOL STATION, AUSTIN, TEXAS 78711

FILE COPY

COA No. 05-19-00415-CR
6/24/2020
vyl ' cy f- c JONES, KYLE DAMOND Ti^t No. F:-186353f H
PD-0442-20
On this day, the Appellant’s Rro Se_^etitidn/,f6r discretionary review has been
refused.
^
Deana Williamson, Clerk
KYLE DAMOND JONES
219 W. CHERRY POINT
DALLAS, TX 75232
* DELIVERED VIA E-MAIL *

50

C

OFFICIAL NOTICE FROM COURT OF CRIMINAL APPEALS OF TEXAS
P.O. BOX 12308, CAPITOL STATION, AUSTIN, TEXAS 78711

V ■

6/24/2020

FILE COPY

*

COA No. 05-19-00416-CR

PD-0443-20
JONES, KYLE DAMOND Tr. Ct. No. F-1853538-H
On this day, the Appellant's Pro Se petition, for discretionary review has been
refused.
' . .
Deana Williamson, Clerk
KYLE DAMOND JONES
219 W. CHERRY POINT
DALLAS, TX 75232
* DELIVERED VIA E-MAIL *

\

Additional material
from this filing is
available in the

Clerk's Office.

